Appendix A: U.S. District Court “Order Granting
in Part and Denying in Part Motion to Review
Taxation of Costs” on 5/19/2016.

25

United States District Court, N.D. California.
Case No. 10-CV-04641-PJH.
May 19, 2016.
ALFRED LAM, et al., Plaintiffs,
v.
THE CITY & COUNTY OF SAN FRANCISCO, et al
Defendants.
ORDER GRANTING IN PART AND DENYING IN PART
MOTION TO REVIEW TAXATION OF COSTS
PHYLLIS J. HAMILTON, District Judge.
Before the court is plaintiffs motion to review the taxation
of costs. Having read the parties' papers and carefully
considered their arguments and the relevant legal
authority, and good cause appearing, the court hereby
GRANTS in part and DENIES in part plaintiffs motion, as
follows.
BACKGROUND
On March 7, 2016, the court entered an order granting
defendant's motion for summary judgment. On March 14,
2016, defendant filed a bill of costs, seeking reimbursement
of $22,334.76. Plaintiffs filed objections on March 28, 2016,
and on April 14, 2016, the Clerk of Court reduced
defendant's requested costs by a total of $2,040.71, and
taxed costs against plaintiffs in the amount of $20,294.05.
On April 21,2016, plaintiffs filed a document entitled "notice
of motion and motion objections to defendants' bill of cost,"
which the court construed as a motion to review taxation of
costs, and for which the court set a briefing schedule.

26

Defendant has now filed its opposition brief, and plaintiffs
have filed a reply brief.
DISCUSSION
A. Legal Standard
"Unless a federal statute, these rules, or a court order
provides otherwise, costs — other than attorney's fees —
should be allowed to the prevailing party." Fed. R. Civ. P.
54(d). The U.S. Supreme Court has interpreted Rule 54(d)
as "codif[ying] a venerable presumption that prevailing
parties are entitled to costs."; see also Amarel v. Connell,
102 F.3d 1494. 1523 (9th Cir. 19971. The use of the word
"should" in Rule 54(d) "makes clear that the decision
whether to award costs ultimately lies within the sound
discretion of the district court." Marx. 133 S.Ct. at 1172-73.
The losing party has the burden of overcoming the
presumption by affirmatively showing that the prevailing
party is not entitled to costs. See Save Our Valiev v. Sound
Transit. 335 F.3d 932, 944-45 (9th Cir. 2003) (citing Stanley
v. University of So. Cal.. 178 F.3d 1069, 1079 (9th Cir.
1999)). Generally, only misconduct "worthy of a penalty,"
an insignificant or nominal recovery, or the losing party's
indigency will suffice. Association of Mexican-American
Educators v. State of Cal.. 231 F.3d 572, 591-92 (9th Cir.
2000) (en banc): see also Save Our Valiev, 335 F.3d at
945(Ninth Circuit has in past decisions considered factors
including the losing party's limited financial resources,
misconduct on the part of the prevailing party, the
importance and complexity of the issues, the merit of the
plaintiffs case, and the chilling effect on future civil rights
litigants of imposing high costs).

27

If the district court wishes to depart from the presumption
in favor of awarding costs, it must "specify reasons" for
doing so by explaining "why a case is not 'ordinary' and
why, in the circumstances, it would be inappropriate or
inequitable to award costs." Mexican-American Educators,
231 F.3d at 591-93. Although a district court must "'specify
reasons' for its refusal to tax costs to the losing party," a
court need not specify reasons for its "decision to abide the
presumption and tax costs to the losing party." Save Our
Valiev. 335 F.3d at 945 (citing Association of MexicanAmerican Educators. 231 F.3d at 5911 ("The presumption
itself provides all the reason a court needs for awarding
costs, and when a district court states no reason for
awarding costs, [the reviewing court] will assume it acted
based on that presumption.").
District courts may consider a variety of factors in
determining whether to exercise their discretion to deny
costs to the prevailing party. Association of MexicanAmerican Educators. 231 F.3d at 592-93. A court abuses
its discretion by awarding costs only in the "rare occasion"
where "severe injustice will result from an award of costs,"
and the court does not conclude that the presumption in
favor of awarding costs has been rebutted. Save Our
Valiev. 335 F.3d at 945.
B. Legal Analysis
Plaintiffs' motion largely makes the same arguments that
were raised in their objections to defendant's bill of costs.
The arguments are, in large part, very generalized —
arguing that the court should exercise its discretion to not
award costs, arguing that defendants have unclean hands,
and arguing that large portions of the depositions were
dominated by defendants' counsel's objections. Plaintiffs
do present a list of specific reasons for granting their
motion: "(a) only reasonable costs may be recovered and
this court has the discretion to refuse or apportion costs as
28

appropriate, (b) any of defendants' improper claims for
expedited service of process fees should be denied, (c)
defendants' excessive claims for transcript costs should be
denied, and (d) defendants' excessive claims for
photocopying should be denied." Finally, plaintiffs argue
that a costs award would impose a hardship on them.
In general, the court finds that plaintiffs' arguments do not
overcome the presumption that the prevailing party is
entitled to costs. A number of plaintiffs' arguments are
conclusory — for instance, that defendants have unclean
hands — and the others simply fail to meet the standard of
showing that defendant has engaged in misconduct
"worthy of a penalty." However, there is one category of
costs that are not warranted.
The case law in this district is fairly clear that "costs for
expedited transcripts are not recoverable." Apple Inc, v.
Samsung Electronics Co., Ltd., 2014 WL 4745933 (N.D.
Cal. Sept. 19, 2014); see also Hesterbera v. United States,
75 F.Supp.3d 1220. 1225 (N.D. Cal. 2014 ("It is well
established in this district that 'expedited delivery charges
for deposition transcripts are not allowable'"); City of
Alameda v. Nuveen. 2012 WL 177566 (N.D. Cal. Jan. 23,
2012). Included within the bill of costs is a total of $5,316.27
for expedited deposition transcripts111, and under the law of
this district, the court finds that these costs are not
recoverable. Accordingly, plaintiffs' motion to review the
taxation of costs is GRANTED to the extent that it seeks to
reduce the costs award to remove the expedited transcript
costs, but DENIED on all other grounds.
CONCLUSION
For the foregoing reasons, plaintiffs' motion to review the
taxation of costs is GRANTED in part and DENIED in part.
The costs awarded for transcripts shall be reduced by

29

$5,316.27, resulting in a total costs award to defendant in
the amount of $14,977.78.
IT IS SO ORDERED.
[1] This figure includes $687.06 for the expedited transcript of the
deposition of John Radogno, $501.93 for the expedited transcript of
the deposition of Dennis Doyle, $513.81 for the expedited transcript
of the deposition of Mildred Singh, $457.38 for the expedited
transcript of the deposition of Toni Ratcliff-Powell, $798.93 for the
expedited transcript of the deposition of Greg Foote, $308.88 for the
expedited transcript of the deposition of Christopher Baldwin,
$507.87 for the expedited transcript of the deposition of Robert
Taylor, $310.86 for the expedited transcript off the deposition of
Tamara Ratcliff, $310.00 for the expedited transcript of the
deposition of Allen Nance, and $919.55 for the expedited transcript
of the deposition of Luis Recinos. See Dkt. 209, Ex. B.

30

Appendix B: Attached 9th Circuit Court
Memorandum on 3/18/2019

31

United States Court of Appeals, Ninth Circuit.
ALFRED LAM; PAULA LEIATO, Plaintiffs-Appellants,

v.
CITY AND COUNTY OF SAN FRANCISCO; et al„
Defendants-Appellees.
Nos. 16-15596. 16-16559. No. 17-

15208.
Submitted March 14, 2019^3.
Filed March 18, 2019.
Appeal from the United States District Court for the
Northern District of California; D.C. Nos. 4:10-cv-04641PJH, 4:08-cv-04702-PJH, Phyllis J. Hamilton, Chief
Judge, Presiding.
Before: WALLACE, FARRIS, and TROTT, Circuit Judges.
NOT FOR PUBLICATION
MEMORANDUM13
In these appeals, Alfred Lam and Paula Leiato appeal pro
se from the district court's summary judgment in their action
alleging employment discrimination; from the district court's
award of costs to the defendants; and from the district
court's denial of their motion to reconsider a prior summary
judgment. We affirm in part and dismiss in part.
In Appeal No. 16-15596, Lam and Leaito appeal from the
district court's summary judgment. We have jurisdiction
under 28 U.S.C. § 1291. We review de novo, Vasauez v.
County of Los Anaeles. 349 F.3d 634. 639 (9th Cir.
2003), and we affirm.

32

The district court properly granted summary judgment on
Lam's and Leiato's discrimination claims because Lam and
Leiato failed to raise a genuine dispute of material fact as
to whether defendants took adverse action against
plaintiffs, and whether defendants had legitimate, nondiscriminatory motives for their actions. Id.at 640-42
(providing framework for analyzing discrimination claims).
Lam and Leiato's contentions that the district court ignored
relevant evidence or was biased against them are
unsupported by the record. See, e.g., Brown Baa Software
v. Symantec Com.. 960 F.2d 1465, 1474 (9th Cir.
1992) (district court's failure to refer to declaration and
exhibits in summary judgment order was harmless where
plaintiff failed to argue how consideration of declaration
would have changed result reached by district court).
The district court properly concluded that Lam and Leiato,
as pro se litigants, lacked the authority to represent a
class. See C.E. Pope Equity Trust v. United States, 818
F.2d 696. 697 (9th Cir. 1987) ("Although a non-attorney
may appear in propria persona in his own behalf, that
privilege is personal to him. ... He has no authority to
appear as an attorney for others than himself."). To the
extent Lam and Leiato contend that reversal is required due
to alleged ineffective assistance of counsel, this contention
is without merit. See, e.g., Nicholson v. Rushen, 767 F.2d
1426, 1427 (9th Cir. 1985) (plaintiff is a civil case has no
right to effective assistance of counsel). We reject Lam and
Leiato's remaining arguments as unsupported by the
record.
The district court did not abuse its discretion in awarding
costs to defendants because Lam and Leiato failed to
establish why the defendants were not entitled to
costs. See Save Our Valiev v. Sound Transit. 335 F.3d 932,
944-45 n.12 (stating standard of review and burden of
proof).

33

In Appeal No. 16-16559, Lam and Leiato appeal the
district court's order denying their second motion to
reconsider the district court's costs award. We dismiss
this appeal because it was not timely filed. See Fed. R.
App. Proc. 4(a)(1)(A), 26(a)(1); United States v.
Sadler. 480 F.3d 932. 937 (9th Cir. 2007) (untimely civil
appeals must be dismissed for lack of jurisdiction).
In Appeal No. 17-15208, Lam and Leiato appeal the district
court's order denying their motion for relief under Federal
Rules of Civil Procedure 59(b), (e), 60(b), and 60(d)(3) as
"untimely and meritless". We have jurisdiction under 28
U.S.C. § 1291. We review for an abuse of
discretion. School Dist. No. 1J. Multnomah County, Or. v.
ACandS. Inc.. 5 F.3d 1255.1262 (9th Cir. 1993) (Rule 59(e)
and Rule 60(b)). We affirm.
The district court correctly exercised its discretion in
denying Lam and Leiato's motion. The district court
properly determined that all of the twenty-two alleged
questionable grounds for relief were untimely because their
motion was filed more than four years after the entry of
judgment.
APPEAL NOS. 16-15596 and 17-15208 AFFIRMED.
APPEAL NO. 16-16559 DISMISSED.
n Lam and Leiato’s request for oral argument is denied, because the panel
unanimously concludes this case is suitable for decision without oral
argument. See Fed. R. App. P. 34(a)(2).
n This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.

34

Appendix C: 9th (Ninth) Circuit Motion for
Reconsideration Decision on 4/19/2019

35

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
ALFRED LAM; PAULA LEIATO,
Plaintiffs - Appellants,
V.
CITY AND COUNTY OF SAN FRANCISCO;
et al.,
Defendants - Appellees.

April 19, 2019
No. 16-16559
D.C. No. 4:10-cv-04641-PJH
Northern District of California, Oakland
ORDER
Before: WALLACE, FARRIS, and TROTT, Circuit
Judges,
Appellants' motion for reconsideration is DENIED.
No further motions will be entertained in this closed
case.

36

Appendix D: U.S. District Court Denying Motion
for Reconsideration on 7/18/2016

37

United States District Court, N.D. California.
Case No. 10-cv-04641-PJH.
July 18, 2016.
ALFRED LAM, et al„ Plaintiffs,
v.
THE CITY & COUNTY OF SAN FRANCISCO, et al.,
Defendants.
ORDER DENYING MOTION TO RECONSIDER TAXATION
OF COSTS
Re: Dkt. No. 228
PHYLLIS J. HAMILTON, District Judge.
Before the court is a motion by plaintiffs Alfred Lam and
Paula Lieto ("plaintiffs") seeking reconsideration of the
court's order on the taxation of costs. Dkt. 228. Having
reviewed the papers, and good cause appearing, the court
hereby DENIES the motion.
On March 7, 2016, the court granted summary judgment to
defendants on all claims in this workplace discrimination
case. Dkt. 204. Plaintiffs filed both an appeal and a motion
for reconsideration of the judgment. Dkt. 211, 212. In light
of the appeal, the court denied a prior motion for
reconsideration, which it construed as a Rule 59/60 motion,
for lack of jurisdiction on April 7, 2016. Dkt. 214.
On March 14, the defendants filed a bill of costs, seeking
$22,334.76. Plaintiffs objected, and the Clerk taxed costs
in the amount of $20,294.05 on April 14. Dkt. 215. Plaintiffs
then filed a motion objecting to the bill of costs, which the
court construed as a motion seeking review of the Clerk's
taxation of costs under Federal Rule 54(d)(1). Dkt. 218.
38

The matter was briefed, and on May 19 the court issued an
order granting the motion in part, and reducing the cost
taxation to $14,977.78 because costs for expedited
transcripts were not recoverable. Dkt. 226.
Plaintiffs now bring a "motion for reconsideration" of the
May 19 order on taxation of costs, purportedly pursuant to
Federal Rules of Civil Procedure 59(b), 59(e), and 60(b).
Rules 59(b), 59(e) are not applicable here, as plaintiffs do
not seek a new trial or to alter a judgment, and none of the
grounds listed in Rule 60(b) apply here. Local Rule 7-9(a),
governing motions for reconsideration, applies only to
interlocutory orders prior to judgment, and the plaintiffs
have not sought leave of the court to file such a motion.
Accordingly, the court will construe the motion is as made
pursuant to Federal Rule 54(d)(1) to review the clerk's
taxation of costs. However, as the plaintiffs have already
made such a motion, see Dkt. 217, the instant motion is
therefore both repetitive and untimely. This is the plaintiffs'
third attempt to object to the taxation of costs. They
achieved a reduction from the Clerk, Dkt. 215, and a further
reduction from the court in its May 19 order. Dkt. 226. There
is no procedural basis to reconsider the court's prior order,
and for good reason: the court has already reviewed and
ruled on the matter. The motion for reconsideration is
therefore DENIED.
IT IS SO ORDERED.

39

I

Appendix E: U.S. District Court Denying Motion for
Reconsideration on 8/2/2016

;

40

United States District Court, N.D. California.
Case No. 10-cv-04641-PJH.
August 2, 2016.
ALFRED LAM, et al., Plaintiffs,

v.
THE CITY & COUNTY OF SAN FRANCISCO, et al.,
Defendants.
ORDER DENYING MOTION FOR RECONSIDERATION
Re: Dkt. No. 232.
PHYLLIS J. HAMILTON, District Judge.
Before the court is plaintiff Alfred Lam's motion for
reconsideration of the court's order on the taxation of costs
(Dkt. 232). This is plaintiffs fourth attempt to object to the
taxation of costs and the second motion for reconsideration
of the court's May 19, 2016 order on taxation of costs. The
motion is repetitive, and untimely, and is hereby DENIED.
IT IS SO ORDERED.

41

[

